WAIVER

Supreme Court of the United States

No. 19-440

Northern Trust Corporation, et al v. Lindie L. Banks, et al.
(@etitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
@ Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

@ Iama member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed by a gg
Signature Lx Ze ip
Date: 10 1/24 | a

(Type or print) Name. cian ay Na \\ oy
@ Mr. OMs. 7O Mrs. O Miss

Firm The Bandi Law Fim

Address 294 Pine Street, Sed too
City & State") Frunciseo, CA Zip TXIOY
Phone _“WS~ 989- \8OO

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

ce: Me. Tan teath Gershengon

Dennert Block

eT metre Ave, NW
0

Washington, OC 2000 |

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
